WAIVER

Supreme Court, U.S.
FILED

MAY 1 4 2021

Supreme Court of the United States

OFFICE OF THE CLERK

No. 20-1513
v.

Raj Patel
(Petitioner)

Trump Corporation, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Courf.
Please check the appropriate box:
/I am filing this waiver on behalf of all respondents.
El

I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

V

I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme 2m.irt, Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

t14/t/i/

Signature

‘

11(fIst

Date:

O a. vL m

(Type or print) Name
0 Mr.

Fills.

0 Mrs.

C. fri.cfridoo
0 Miss

I thrvi

Firm
Address

4

City & State
Phone

1 0 Pet/k A-VI VI 14,4'
tV ekt) If 01( 14

gini tat

/ 17

1

to 1710

Email

Vb

OVUM

Zip

14 Gl•

/0 0 27

, .414

cc.S.1--1
6__4
eLciA4

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
CC:

M

ivgq
fir©

Pell' Ir o-0 or (pre
Ra,) k . Potik
spriof bake br;
budl /N
4- 6) I Z.

se.)

Supreme Court of the United States

Raj Patel
(Petitioner)
v.

No. 20-1513

Trump Corporation, et al.
(Respondent)

To

U$3011.nr,1/4.

C- • \--VAIIP(1

Counsel for Respondent:

NOTICE IS HEREBY GIVEN pursuant to Rule 12.3 that a petition for a writ of
certiorari in the above-entitled case was filed in the Supreme Court of the United States
on October 13, 2020, and placed on the docket April 28, 2021. Pursuant to Rule 15.3, the
due date for a brief in opposition is Friday, May 28, 2021. If the due date is a Saturday,
Sunday, or federal legal holiday, the brief is due on the next day that is not a Saturday,
Sunday or federal legal holiday.
Beginning November 13, 2017, parties represented by counsel must submit filings
through the Supreme Court's electronic filing system. Paper remains the official form of
filing, and electronic filing is in addition to the existing paper submission requirement.
Attorneys must register for the system in advance, and the registration process may take
several days. Further information about the system can be found at
https://www.supremecourt.gov/filingandrules/electronicfiling.aspx.

Unless the Solicitor General of the United States represents the respondent, a
waiver form is enclosed and should be sent to the Clerk only in the event you do not
intend to file a response to the petition.
Only counsel of record will receive notification of the Court's action in this case.
Counsel of record must be a member of the Bar of this Court.

Mr. Raj K. Patel
1239 Spring Lake Drive
Brownsburg, IN 46112
317-450-6651

RECEIVED
MAY 1 8 2021
OFFICE OF THE

CLERK
SUPREME COuRT
U.S.

NOTE: This notice is for notification purposes only, and neither the original nor a copy should be filed in the
Supreme Court.

